        U.S. Department of State
and the Broadcasting Board of Governors

Office of Inspector General




Strategic Plan
       2009-2014
         Message from the Inspector General
  U.S. Department of State and Broadcasting Board of Governors

I am pleased to present the Office of Inspector General’s Strategic Plan for
fiscal years 2009 to 2014. Since the release of its last strategic plan, OIG has
reorganized to better focus on its core functions of audits, inspections, and
investigations. During 2008, OIG established its first overseas field office in
Amman, Jordan, to provide more effective oversight of the substantial increase
of Department of State and the Broadcasting Board of Governors resources in
Iraq, Afghanistan, and other crisis and post-conflict regions. The addition of a
new OIG field office in Cairo and temporary satellite offices in Baghdad and
Kabul will further expand OIG’s capabilities to meet its strategic priorities and
growing global mission.

This strategic plan sets forth OIG’s strategic priorities to promote positive
change, maximize efficiency and value in our work, and lead by example in
creating a model organization. It further provides the means and strategies by
which we will achieve these priorities, and the standards by which we will
measure our success. This is an evolving document, which will be updated as
necessary to ensure that OIG’s work remains relevant, timely, and responsive
to global developments and the priorities of the foreign affairs community.

                                                   Harold W. Geisel,
                                                   Acting Inspector General

                                                                  March 2009
Introduction
The Office of Inspector General has a leading role in helping the Department of State (the Department)
and the Broadcasting Board of Governors (BBG) improve management, strengthen integrity and
accountability, and ensure the most efficient, effective, and economical use of resources. OIG’s activities
are global in scope, supporting the highest priorities of the Department. OIG’s oversight extends to the
Department’s and BBG’s 60,000+ employees and more than 270 missions and other facilities worldwide,
funded through combined annual appropriations of more than $8 billion. OIG remains at the forefront of
efforts to identify potential savings and cost efficiencies for the Department and BBG, and strives to
provide timely, relevant, and useful feedback on the progress of their programs and initiatives.
OIG’s mandate includes the traditional areas of emphasis for the Department and BBG—including
diplomatic and consular affairs, security, international broadcasting, administrative and financial
management, and information technology—as well as new initiatives and priorities. Department
initiatives related to the American Recovery and Reinvestment Act of 2009, foreign assistance programs,
counterterrorism, and public diplomacy increase OIG’s responsibility to provide meaningful and current
feedback on these evolving programs.
Prior to 2008, OIG employees were based exclusively in Washington, D.C., and travelled worldwide to
conduct audits, inspections, evaluations, and investigations. As the Department continued to commit
significant resources to Afghanistan, Iraq, and other crisis/post-conflict areas, OIG recognized the need
for and value of overseas field offices to meet its increasing oversight responsibilities in those areas. OIG
officially opened the Middle East Regional Office (MERO) in Amman, Jordan, in January 2008 to focus
dedicated resources and expertise on high-risk, high-cost programs and operations in the Middle East and
South Asia, particularly with respect to U.S. interests in Iraq, Afghanistan, Pakistan, Lebanon, and other
post-conflict countries. The Amman regional office will be augmented by three satellite offices: a field
office in Cairo, Egypt, and temporary offices in Baghdad, Iraq, and Kabul, Afghanistan. The Baghdad
office opened in 2008, and the Cairo and Kabul offices are both scheduled to open in 2009.

OIG’s Mission, Vision, and Core Values
OIG’s mission is to conduct independent audits, inspections, evaluations, and investigations to promote
effective management, accountability, and positive change in the Department, BBG, and the foreign
affairs community. OIG provides leadership to:
        Promote integrity, efficiency, effectiveness, and economy;
        Prevent and detect waste, fraud, abuse, and mismanagement;
        Identify vulnerabilities and recommend constructive solutions;
        Offer expert assistance to improve Department and BBG operations;
        Communicate timely, useful information that facilitates decision-making and achieves
         measurable gains; and
        Keep the Department, BBG, and the Congress fully and currently informed.
OIG’s vision is to be a world-class organization promoting effective management, accountability, and
positive change in the Department of State, the Broadcasting Board of Governors, and the foreign affairs
community. Its ―CORE‖ values are:
        Credibility. OIG is committed to the highest standards of accountability, independence, integrity,
         and professionalism.
        Objectivity. OIG’s reports and other products are factual, accurate, informative, and reliable.


OIG Strategic Plan
2009 – 2014                                                                                                1
        Relevance. As an independent agent for positive change, OIG provides valuable and timely
         service.
        Effectiveness. OIG makes a difference. OIG’s impact is enhanced by working cooperatively, in
         a spirit of teamwork, internally and with other organizations.

Statutory Responsibilities
The 1978 Inspector General Act, the 1980 Foreign Service Act, and the 1998 Foreign Affairs Reform and
Restructuring Act charge the OIG with oversight responsibility for the Department of State and the
Broadcasting Board of Governors. These responsibilities include detecting and preventing waste, fraud,
and mismanagement, and with assessing whether U.S. foreign policy goals are being achieved, resources
are used to maximum efficiency, and all elements of U.S. overseas missions are coordinated.
OIG’s security and intelligence oversight responsibilities were established through the Omnibus
Diplomatic Security and Anti-Terrorism Act of 1986 and related Executive Orders. OIG also is
responsible for evaluating compliance with other legislation—such as the Chief Financial Officers Act,
Federal Managers’ Financial Integrity Act, and the Federal Information Security Management Act—
designed to enhance management performance.

OIG Organization
OIG is comprised of four functional offices, as well as executive oversight and support activities. The
Office of Audits, Office of Inspections, Office of Investigations, and the Middle East Regional Office
conduct audits, inspections, evaluations, investigations, and other reviews worldwide. Executive
direction and support activities are provided by the Immediate Office of the Inspector General, Office of
General Counsel, Office of the Executive Director, and Congressional and Public Affairs.




OIG Strategic Plan
2009 – 2014                                                                                                 2
Office of Audits
The Office of Audits conducts and coordinates audits and program evaluations of the management and
financial operations of the Department and BBG, including their audited financial statements, internal
operations, and external activities funded by the Department through contracts or financial assistance. It
also conducts annual reviews of Department and BBG compliance with the Federal Information Security
Management Act. The audits evaluate whether established goals and objectives are achieved and
resources are used economically and efficiently; assess whether intended and realized results are
consistent with laws, regulations, and good business practices; and test financial accountability and the
reliability of financial statements.

Office of Inspections
The Office of Inspections assesses domestic and overseas operations and facilities of the Department and
BBG. Inspections review executive direction, policy and program implementation, resource
management, and management controls. In this context, OIG inspectors: evaluate operations’ leaders
and managers; review staffing to determine whether operations are right-sized; recommend consolidation
and relocation of operations, if appropriate; assess posts’ ability to deter, detect, and respond to threats
and security vulnerabilities; consider whether counterterrorism and policy implementation efforts are
coordinated among agencies overseas; examine consular processes and oversight of visa, passport, and
American citizens services; evaluate information management and information security programs;
evaluate the extent to which financial, human resources, procurement, and inventory management best
practices are employed; and determine whether management controls are in place.

Office of Investigations
The Office of Investigations conducts investigations of criminal, civil, and administrative misconduct
related to Department and BBG programs and operations by investigating specific allegations, reports, or
other information indicating possible violations of law or regulation. Investigative results are referred to
the Department of Justice for prosecution and to the Bureau of Human Resources, the Bureau of
Diplomatic Security, or other agencies for administrative or other appropriate action. The office
maintains the OIG Hotline, a confidential channel for complaints.

OIG Middle East Regional Office
OIG’s Middle East Regional Office was officially established in January 2008 to enhance OIG’s
oversight for high-cost, high-risk Department programs in the Middle East and other post-conflict areas.
MERO is staffed with employees of various disciplines who are capable of reacting with little immediate
guidance or supervision to conduct audit or program evaluations within the region. MERO currently
operates through its regional field office in Amman, Jordan, and a temporary satellite office in Baghdad,
Iraq, supplemented with OIG staff in Washington, DC. MERO is establishing an additional satellite field
office in Cairo, Egypt, and a temporary satellite office in Kabul, Afghanistan.

Executive Direction and Support Offices
The functional offices receive direction and support from several other OIG components. The Immediate
Office of the Inspector General provides executive direction to all offices. The Office of General Counsel
provides legal and policy advice to the Inspector General, senior staff, and others in OIG on the full range
of OIG activities; provides advice on internal personnel, ethics, and management issues; and manages
OIG's Freedom of Information Act and Privacy Act programs. The Office of the Executive Director
provides administrative and management support to OIG in the areas of human resources management,


OIG Strategic Plan
2009 – 2014                                                                                                3
administrative operations, budget, information technology, security, planning, and reports and
publications. Congressional and Public Affairs staff provides liaison with the Congress and the media,
and ensures that OIG speaks with one voice to all audiences, including the Department, BBG, the
Congress, the media, and the general public.

Stakeholders
OIG’s products are directed to and used by a wide range of public and private sector entities. OIG’s
stakeholders include the Congress; the Secretary of State and other Department officials, managers, and
staff; the Board of the BBG, and BBG management and staff; the Council of Inspectors General on
Integrity and Efficiency; other U.S. Government agencies; Federal, state, and local law enforcement
agencies; and members of the general public – especially the U.S. taxpayer. OIG seeks input from its
stakeholders in planning its work, accommodates special requests received outside of the planning
process, and welcomes feedback on its products, processes, and services.

General Means and Strategies
The fundamental means for OIG to achieve its strategic and performance goals will continue to be the
audits, inspections, evaluations, and investigations that comprise the bulk of its efforts. In addition to
fulfilling mandatory requirements and responding to requests, OIG strives to react to the priorities and
demands of each year, and proactively review new programs and potential problem areas identified in the
course of its work. OIG will continue to review and, as appropriate, revise its own processes and
methodologies to get the most value from its resources, better serve its customers and other interested
parties, and ensure the achievement of its strategic and performance goals.
OIG will ensure the utmost transparency in utilizing its resources, executing its work, and reporting
results. OIG will continue its efforts to solicit regularly the views of and obtain feedback from principal
customers and other interested parties through consultations and follow-up reviews to ensure that its
products and services are meeting their needs. OIG will continue to be proactive in addressing the
challenges of the foreign affairs agencies; work with them to anticipate and address potential problems in
new and developing initiatives and programs; and continue a consultative approach in communicating
OIG’s activities, findings, and recommendations.
OIG will continue to pursue authorization for the personnel authorities and financial incentives needed to
recruit the staff and skill sets needed for its work assignments throughout the world, including
Afghanistan, Iraq, and other post-conflict areas. OIG will continue to promote professional development
of its staff with a variety of educational and career development opportunities. These will include both
formal training at high quality institutions, and on-the-job experiences internally and through temporary
details to functional positions in the Department and other U.S. Government agencies.
OIG will pursue its strategy of establishing overseas field offices staffed with employees of all disciplines
who can provide immediate response for evaluation, audit, or investigative needs in the region. OIG’s
overseas presence will continue to focus on the Middle East and South Asia, including Iraq, Afghanistan,
Pakistan, and Lebanon. OIG will also consider establishing temporary field operations in other post-
conflict areas to provide more timely information and assistance with respect to regional issues and
priorities.
Finally, OIG will ―follow the money‖ to help decision-makers within the Department, BBG, and the
Congress manage scarce financial resources. In planning audits, evaluations, and inspections, OIG will
target high-cost programs and operations to provide Department and BBG managers with information that



OIG Strategic Plan
2009 – 2014                                                                                                4
will assist them in making spending decisions. In this context, OIG will explore the feasibility of co-
locating staff at the Department’s Global Financial Services Centers in Bangkok, Thailand, and
Charleston, South Carolina, to develop audits and investigations proactively at these regional hubs for the
flow of funding.

Key Factors That Could Affect Goal Achievement
Numerous external factors could affect OIG’s ability to achieve its goals and targets. Major pandemics or
world events on the order of the September 11 terrorist attacks could impair OIG’s ability to carry out
planned activities because of travel restrictions or security concerns. Evolving foreign policy
developments could result in additional demands that have not been anticipated and that exceed the
resources available for unplanned activities. On-the-ground developments in Iraq and Afghanistan will
affect the scope and timing of OIG’s work in those countries. Additional significant oversight
responsibilities could transfer to OIG with the future ―sunset‖ of the Special Inspector General for Iraq
Reconstruction and the Special Inspector General for Afghanistan Reconstruction.
Other factors that could affect goal achievement include an increase in the number of unfunded
Congressional requests and mandates that require OIG to redirect its resources and activities, reducing the
resources available for planned discretionary activities. Funding contraints and the unanticipated
departure of trained staff would also adversely affect OIG’s ability to meet its strategic goals and
performance targets.

The Department of State’s Strategic Plan
In addition to its own strategic plan, OIG is included in the Department’s plan, specifically as a
component of the Department’s strategic goal of Strengthening Consular and Management Capabilities.
This Department goal encompasses visa and passport services, human resources, information technology,
security, facilities, planning and accountability, administrative services, and rightsizing and
regionalization.
OIG’s contribution to the Department is broader than this single strategic goal, however. The Department
recognizes this fact in its methodology for estimating the resources attributable to each strategic goal. In
preparing its annual performance report, the Department categorizes OIG as providing global support to
the Department, rather than allocating OIG resources to individual goals.

OIG Strategic Goals, Strategies, and Performance Measures

                                GOAL ONE: Positive Change
 Support and assist the Department and the BBG in strengthening management and consular
 capabilities and program effectiveness.


STRATEGIES
        Ensure OIG’s work addresses issues of concern to its stakeholders, and periodically reassess areas
         of emphasis to reflect changing priorities of the Administration, Congress, the Department, and
         BBG.
        Utilize a risk management approach to identify mission-critical systems and operations, potential
         vulnerabilities, and priority areas for evaluation.


OIG Strategic Plan
2009 – 2014                                                                                               5
        Through audits, inspections, evaluations, and compliance follow-up reviews, assess Department
         and BBG progress in correcting management control weaknesses.
        Identify systemic issues and best practices found in the course of individual inspections, audits,
         evaluations, and investigations, and recommend global solutions to strengthen Department and
         BBG management and programs.
        Deploy multifunctional teams of auditors, inspectors, information technology specialists, and
         security professionals to leverage OIG resources in addressing high priority work in Afghanistan,
         Iraq, and other post-conflict areas.

PERFORMANCE INDICATORS

        1-1. Percentage of recommendations resolved within the appropriate timeframe.


Recommendations are a major product of OIG’s audits, inspections, and evaluations, and serve as the
vehicle for correcting vulnerabilities and realizing positive change in the Department and BBG.
Resolution of recommendations reflects management’s willingness to take the actions recommended by
OIG to correct identified problems and improve their programs and operations. The percentage of
recommendations resolved within six months (inspections) or nine months (audits and program reviews)
indicates to what extent management has agreed to take timely action to correct identified problems in
line with OIG recommendations, or has identified acceptable alternatives that are expected to result in
improved programs and operations.


        1-2. Percentage of OIG reports and investigations that focus on Department and
            BBG management challenges.

OIG audits, inspections, and reviews evaluate Department and BBG efforts to achieve results-oriented
management, identify major management challenges, and recommend improvements. OIG investigations
that address alleged malfeasance with respect to Department and BBG management challenges also
contribute to management improvement initiatives. The percentage of OIG work related to agency
management challenges demonstrates the degree to which OIG’s work is focused on improving the areas
of greatest vulnerability in agency operations.


                             GOAL TWO: Efficiency and Value
  Produce timely, quality work and products with relevant, credible, reliable information that
  is useful to Department, BBG, and Congressional decision-makers, particularly in
  managing resources.


STRATEGIES
        Perform risk assessments in planning audits, inspections, evaluations, and investigations to
         identify opportunities for cost savings and avoidance of costs.
        Review and recommend internal control improvements in programs and functions of the
         Department and BBG that are vulnerable to misappropriation, loss, or waste of resources.


OIG Strategic Plan
2009 – 2014                                                                                                   6
        Assess the economy, efficiency, and effectiveness of interagency program support services,
         including whether the most cost-effective means are used in providing services to foreign affairs
         agencies overseas.
        Maintain internal quality assurance and review programs to ensure the reliability and credibility
         of OIG products.
        Maintain transparency in conducting and reporting the results of OIG audits, inspections, and
         evaluations.
        Maximize the use of appropriate technologies to start jobs sooner, finish them quicker,
         disseminate the results broadly, and facilitate the storage and retrieval of reports.

PERFORMANCE INDICATORS
        2-1. Monetary benefits: questioned costs, funds put to better use, cost savings,
             recoveries, efficiencies, restitutions, and fines.


OIG's audits, inspections, evaluations, and investigations result in potential and actual cost savings and
efficiencies to the Department and the BBG. Monetary benefits from OIG's work result in more effective
and efficient use of U.S. taxpayer dollars, and are a primary mandate of the Office of Inspector General.

        2-2. Percentage of Hotline complaints converted to full investigations, referred to
             other entities, or determined to be unsubstantiated within 30 days.

OIG’s investigations contribute to accountability through improved management, efficiency, and
effectiveness of Department and BBG programs, operations, and activities. The percentage of Hotline
complaints converted to full investigations, referred to other entities, or determined to be unsubstantiated
within 30 days measures OIG’s ability to make a rapid assessment of allegations and initiate appropriate
action.


                                    GOAL THREE: People
  Lead by example in providing a model OIG work environment that facilitates timely, quality
  work and products.


STRATEGIES
        Focus recruitment efforts on requisite skill sets such as auditors with expertise in financial audits,
         information technology, and contracts and grants; investigators with proficiency in computer
         forensics and contracts and grants; and inspectors in all diplomatic specialties, with particular
         emphasis on attracting former ambassadors as team leaders.
        Encourage all employees to complete Individual Development Plans, ensure that all employees
         fulfill mandatory training requirements, and support employees in their pursuit of developmental
         training.




OIG Strategic Plan
2009 – 2014                                                                                                  7
         Encourage and support employees’ efforts to achieve appropriate professional certifications, such
          as the designation of Certified Public Accountant, Certified Internal Auditor, and Certified
          Information Systems Auditor.
         Provide the support structure and technological tools and equipment that will assist employees in
          producing quality and timely products.

PERFORMANCE INDICATOR

        3-1. Annual rate of attrition for Civil Service employees.


OIG’s products and services are only possible through its people. OIG’s success is predicated on
attracting and retaining highly qualified employees with functional and/or subject-matter expertise in
auditing, program evaluation, and investigations, as well as foreign policy, information technology,
security, and public diplomacy. Employee retention is measured in terms of annual attrition of Civil
Service employees, who represent approximately 90 percent of OIG staff.




OIG Strategic Plan
2009 – 2014                                                                                               8
